No..

In the SUPREME COURT OF THE UNITED STATES
HENRY E. GOSSAGE, Petitioner,
v.
MERIT SYSTEMS PROTECTION BOARD (MSPB),
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
AFFADAVIT AND MOTION FOR LEAVE TO PROCEED AS A VETERAN

I, Henry E. Gossage, is a wartime Veteran Petitioner in the above-entitled
case (USCA 2021-1559). Petitioner respectfully request, in support of my Motion to
proceed without fees or costs, pursuant to Supreme Court Rule 40 and USERRA
from Federal Circuit Court of Appeals 2021-1559. This case is intertwined with Two
separate OPM 5 C.F.R. § 731 et seq. suitability inapposite decisions (May 16, 2001
and December 27, 2004) from OPM Investigation Case 01-904-277 and OPM May
16, 2001, negative suitability determination
Petitioner is entitled to proceed as a Veteran in this Court without fees or
costs as a Veteran. Petitioner under 38 U.S.C. § 4323(h) and Supreme Court Rule 40,
exempting from payment of filing fees and costs in OPM investigation-ease 01-904-277
The following documents is submitted in support of this motion:
1. DD 214 Honorable Discharge;

RECEIVED
may 25 20a

2. OSH-OO-87-Ol/S-l Certificate of Eligibles CPS Veteran;
3. November 30, 2000-Pass Over authorization of preference veteran;
4. May 16, 2001-OPM Negative Suitability Determination, debarment,
and employment disqualification;
5. December 27, 2004-OPM VACATED Karen McCue’s May 16, 2001,
Negative Suitability Determination, reinstating Petitioner’s Veteran
rights to initial Federal Employment.
Petitioner was denied initial federal employment, as a preference eligible
veteran under USERRA. Petitioner’s USERRA, VEOA, 5 U.S.C. § 3318, 5 C.F.R.
§ 300.104 and 5 U.S.C. § 2302 rights were violated in OPM Investigation Case 01904-277. OPM implemented a separate veteran “suitability” employment, and
concealment policy and practice under 5 U.S.C. § 2302(b)(13) and 5 C.F.R.
§ 300.104, from Lead Specialist Kim Truckley’s December 27, 2004, Final OPM 5
C.F.R. § 731 et seq. suitability decision, amending/vacating OPM’s Karen McCue’s
May 16, 2001, negative suitability determination. Based on OPM new, material,
and Final December 27, 2004, decision, Henry E. Gossage submitted a new
USERRA/VEOA appeal to the MSPB, MSPB SE-0731-01-0261-I-2 and Federal
Circuit Court of Appeals (2021-1559), in OPM Investigation Case 01-904-277.
For the above reasons, Petitioner respectfully request the Court accept this
petition without costs under Supreme Court Rule 40 and/or 38 U.S.C. § 4323(h).
DATED: May2§ 2021

Respectfully Submit]

ft

HenryJE^Gossage, Pro se Veteran
9421 Johnson Pt Lp NE
Olympia, WA 98516
hegossage@gmail.com
(360) 951-7826

2

a-2

APPENDIX A-l
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit

HENRY E. GOSSAGE
Petitioner
v.
MERIT SYSTEMS PROTECTION BOARD
Respondent
2021-1559
Petition for review of the Merit Systems Protection
Board in No. SE-0731-01-0261-M-1.

ON MOTION

PER CURIAM.
ORDER
In response to the court’s February 24, 2021 order to show cause, the Merit
Systems Protection Board urges dis-missal of this petition for review as untimely.
Henry E. Gossage opposes dismissal.
Mr. Gossage’s petition filed at this court indicates thathe seeks judicial review
of an August 25, 2006 decision of an administrative judge of the Merit Systems
Protection Board in SE-0731-01-0261-M-1, which on September 29, 2006 became the
Board’s final decision in that matter.

a-3

Section 7703(b)(1)(A) of title 5 of the U.S. Code states that a petition for review
from the Board “shall be filed within 60 days after the Board issues notice of the final
or-der or decision of the Board.” 5 U.S.C. § 7703(b)(1)(A). In his response to this
court’s show cause order, Mr. Gossageargues that the cause of his untimeliness and
delay in seeking judicial review was the result of misconduct on the partof the Office
of Personnel Management.
This court has held that section 7703(b)(l)(A)’s dead- line is jurisdictional and
not subject to equitable tolling. See Fedora v. Merit Sys. Prot. Bd., 848 F.3d 1013,
, 1016 (Fed. Cir. 2017) (confirming that § 7703(b)(l)(A)’s deadlineis jurisdictional).
Thus, we may only consider whether the petition for review was timely filed at this
court and can not toll the deadline based on Mr. Gossage’s personal circumstances.
Because the petition here was received outside ofthe 60-day filing deadline, we must
dismiss.
Accordingly,
IT IS ORDERED THAT:
(1) The petition for review is dismissed.
(2) All pending motions are denied as moot.
(3) Each side shall bear its own costs.
FOR THE COURT
April 20, 2021
DATE
S24

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Additional material
from this filing is
available in the
Clerk's Office.

